April 27, 2012

TO:	             Marilyn Tavenner
                 Acting Administrator
                 Centers for Medicare & Medicaid Services


FROM:	           /Gloria L. Jarmon/
                 Deputy Inspector General for Audit Services


SUBJECT:	 Review of Medicare Payments Exceeding Charges for Outpatient Services
          Processed by Wisconsin Physicians Service Insurance Corporation but
          Transitioned to Highmark Medicare Services in Jurisdiction 12 for the Period
          January 1, 2006, Through June 30, 2009 (A-07-11-04184)


Attached, for your information, is an advance copy of our final report on Medicare payments
exceeding charges for outpatient services processed by Highmark Medicare Services (Highmark)
in Jurisdiction 12. We will issue this report to Highmark within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591
or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-11-04184.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION VII
                                                                   601 E AST 12 T H S TREET, R OOM 0429
                                                                            K ANSAS C ITY , MO 64106




April 30, 2012

Report Number: A-07-11-04184

Ms. Sandy Coston
Chief Executive Officer
Highmark Medicare Services
1800 Center Street
Camp Hill, PA 17011

Dear Ms. Coston:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Review of Medicare Payments Exceeding Charges for Outpatient
Services Processed by Wisconsin Physicians Service Insurance Corporation but Transitioned to
Highmark Medicare Services in Jurisdiction 12 for the Period January 1, 2006, Through
June 30, 2009. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.
Page 2 – Ms. Sandy Coston


If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-11-04184 in all
correspondence.

                                           Sincerely,



                                           /Patrick J. Cogley/
                                           Regional Inspector General
                                             for Audit Services


Enclosure


cc:
Mr. E. James Bylotas
Director, Quality and Performance Management


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
  Department of Health and Human Services
               OFFICE OF

          INSPECTOR GENERAL





 REVIEW OF MEDICARE PAYMENTS EXCEEDING

     CHARGES FOR OUTPATIENT SERVICES

PROCESSED BY WISCONSIN PHYSICIANS SERVICE 

 INSURANCE CORPORATION BUT TRANSITIONED

    TO HIGHMARK MEDICARE SERVICES IN

      JURISDICTION 12 FOR THE PERIOD 

             JANUARY 1, 2006,

          THROUGH JUNE 30, 2009





                         Daniel R. Levinson

                          Inspector General


                             April 2012

                           A-07-11-04184

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted for outpatient
services. The Medicare contractors use the Fiscal Intermediary Standard System and CMS’s
Common Working File (CWF) to process claims. The CWF can detect certain improper
payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of billable
units administered, as defined by the HCPCS code description. In addition, providers should
charge Medicare and other payers, such as private insurance companies, uniformly. However,
Medicare uses an outpatient prospective payment system to pay certain outpatient providers. In
this method of reimbursement, the Medicare payment is not based on the amount that the
provider charges. Consequently, the billed charges (the prices that a provider sets for its
services) generally do not affect the current Medicare prospective payment amounts. Billed
charges generally exceed the amount that Medicare pays the provider. Therefore, a Medicare
payment that significantly exceeds the billed charges is likely to be an overpayment.

During our audit period (January 2006 through June 2009), Wisconsin Physicians Service
Insurance Corporation (WPS) processed approximately 35.2 million line items for outpatient
services in Jurisdiction 12, of which 424 line items had (1) a Medicare line payment amount that
exceeded the line billed charge amount by at least $1,000 and (2) 3 or more units of service.
Effective February 2011, the claims that were originally processed by WPS in Jurisdiction 12
were transitioned to Highmark Medicare Services (Highmark). Thus, the 424 line items will be
adjudicated by Highmark, and we are issuing our report to Highmark. (A single Medicare claim
from a provider typically includes more than one line item. In this audit, we did not review
entire claims; rather, we reviewed specific line items within the claims that met these two
criteria. Because the terms “payments” and “charges” are generally applied to claims, we will
use “line payment amounts” and “line billed charges.”)

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
WPS made to providers for outpatient services were correct.

SUMMARY OF FINDINGS

Of the 424 selected line items for which WPS made Medicare payments to providers for
outpatient services during our audit period, 201 were correct. Providers refunded overpayments

                                                i
on 18 line items totaling $32,031 before our fieldwork. The remaining 205 line items were
incorrect and included overpayments totaling $1,508,155, which the providers had not refunded
by the beginning of our audit.

Of the 205 incorrect line items:

   •    Providers reported incorrect units of service on 102 line items, resulting in overpayments
        totaling $1,274,331.

   •    Providers used HCPCS codes that did not reflect the procedures performed on 60 line
        items, resulting in overpayments totaling $131,953.

   •    Providers billed for unallowable services on 25 line items, resulting in overpayments
        totaling $68,227.

   •    Providers did not provide the supporting documentation for 13 line items, resulting in
        overpayments totaling $25,780.

   •    Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes on five line items, resulting in overpayments totaling $7,864.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
WPS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

RECOMMENDATIONS

We recommend that Highmark:

    •   recover the $1,508,155 in identified overpayments,

    •   work with CMS to implement system edits that identify line item payments that exceed
        billed charges by a prescribed amount, and

    •   use the results of this audit in its provider education activities.

HIGHMARK MEDICARE SERVICES COMMENTS

In written comments on our draft report, Highmark stated that it was unable to verify the
overpayment amounts because access to the WPS workload was no longer available. Highmark
added that it would consult with CMS to determine whether any of the overpayments were
collected to date and to pursue the possibility of recovery of any outstanding overpayments.



                                                   ii
Our draft report included a recommendation related to the recovery of two incorrect line item
payments whose line payment amounts had not been determined. In comments on this
recommendation, Highmark stated that the two claims could not be adjusted based on the current
coding. Highmark stated it would consult with CMS to determine how to address the
overpayment amount related to the two claims and recover the funds.

In comments on the last two recommendations, Highmark described corrective actions that it had
taken or planned to take.

Highmark’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

With respect to Highmark’s comments related to the identified overpayments, we reviewed the
remittance advices or the information contained in the Medicare claims processing system for
each adjusted line item. In this manner, we were able to confirm not only that the providers had
refunded the overpayments, but also the amounts of the overpayments. To verify that the
overpayments have been collected, we encourage Highmark to consult with CMS.

When we issued our draft report, 2 of the 205 incorrect line items had not been reprocessed and
the correct line payment amounts for those 2 line items had not been determined. Providers have
since adjusted the two line items that were outstanding and have subsequently refunded an
additional $1,451 to Highmark. After the issuance of our draft report, we identified one line item
for which our draft report had understated the questioned cost by $3,028. For this final report,
we revised the findings and first recommendation to reflect the additional claim lines adjusted
and amounts recovered. We also removed the recommendation involving the two incorrect line
items that had been in our draft report.




                                               iii
                                                   TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors .................................................................................... 1
        Claims for Outpatient Services ....................................................................................... 1
        Wisconsin Physicians Services Insurance Corporation .................................................. 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope......................................................................................................... 2
        Methodology ................................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS FOR SELECTED LINE ITEMS ......................................................... 5
        Incorrect Number of Units of Service ............................................................................. 5
        Incorrect Healthcare Common Procedure Coding System Codes .................................. 5
        Services Not Allowable for Medicare Reimbursement……………………………….. 5
        Unsupported Services…………………………………………………………………..6
        Combination of Incorrect Number of Units of Service and
          Incorrect Healthcare Common Procedure Coding System Codes ............................... 6

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 6

      RECOMMENDATIONS ...................................................................................................... 7

      HIGHMARK MEDICARE SERVICES COMMENTS ....................................................... 7

      OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................... 7

APPENDIX

      HIGHMARK MEDICARE SERVICES COMMENTS




                                                                     iv
                                               INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.
Part B of the Medicare program helps cover medically necessary services such as doctors’
services, outpatient care, home health services, and other medical services. Part B also covers
some preventive services.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
Part B claims submitted for outpatient services. 1 The Medicare contractors’ responsibilities
include determining reimbursement amounts, conducting reviews and audits, and safeguarding
against fraud and abuse. Federal guidance provides that Medicare contractors must maintain
adequate internal controls over automatic data processing systems to prevent increased program
costs and erroneous or delayed payments. To process providers’ outpatient claims, the Medicare
contractors use the Fiscal Intermediary Standard System and CMS’s Common Working File
(CWF). The CWF can detect certain improper payments during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains details regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of billable
units administered, as defined by the HCPCS code description. 2 In addition, providers should
charge Medicare and other payers, such as private insurance companies, uniformly. However,
Medicare uses an outpatient prospective payment system to pay certain outpatient providers. In
this method of reimbursement, the Medicare payment is not based on the amount that the
provider charges. Consequently, the billed charges (the prices that a provider sets for its
services) generally do not affect the current Medicare prospective payment amounts. Billed
charges generally exceed the amount that Medicare pays the provider. Therefore, a Medicare
payment that significantly exceeds the billed charges is likely to be an overpayment.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                          1
Wisconsin Physicians Service Insurance Corporation

As part of its Legacy Workload, Wisconsin Physicians Service Insurance Corporation (WPS)
processed some outpatient claims for Jurisdiction 12 during our audit period (January 2006
through June 2009). 3 Effective February 2011, the Legacy Jurisdiction 12 (Legacy J12)
Workload transitioned to Highmark Medicare Services (Highmark), the Medicare contractor for
all States in Jurisdiction 12—Delaware, Maryland, New Jersey, and Pennsylvania—as well as
the District of Columbia. 4 Thus, the Legacy J12 claims that were originally processed by WPS
will be adjudicated by Highmark, and we are issuing our report to Highmark. During our audit
period, WPS processed 35.2 million line items for outpatient services that were transitioned to
Highmark.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
WPS made to providers for outpatient services were correct.

Scope

Of the approximately 35.2 million line items for outpatient services that WPS processed during
the period January 2006 through June 2009, 424 line items had (1) a Medicare line payment
amount that exceeded the line billed charge amount by at least $1,000 and (2) 3 or more units of
service. 5

We limited our review of WPS’s and Highmark’s internal controls to those that were applicable
to the selected payments because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

Our fieldwork included contacting WPS in Omaha, Nebraska, as well as Highmark in Camp Hill,
Pennsylvania, and the 31 providers in Jurisdiction 12 that received the selected Medicare
payments.
3
 The WPS Legacy Workload had previously been processed by Mutual of Omaha. The Legacy Workload includes
claims submitted by providers who fall under the geographic jurisdiction of all 15 MACs.
4
  The Legacy Workload transition includes a significant number of providers that are Qualified Chain Providers, a
designation for providers located over a large geographic area that belong to multiple MAC jurisdictions. A
Qualified Chain Provider has the option to move all of its providers, regardless of geographic location, to the MAC
that covers the State in which the Qualified Chain Provider’s home office is located.
5
  A single Medicare claim from a provider typically includes more than one line item. In this audit, we did not
review entire claims; rather, we reviewed specific line items within the claims that met these two criteria. Because
the terms “payments” and “charges” are generally applied to claims, we will use “line payment amounts” and “line
billed charges.”


                                                          2
Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   used CMS’s National Claims History file to identify outpatient line items processed by
        WPS for providers that billed line items with (1) a Medicare line payment amount that
        exceeded the line billed charge amount by at least $1,000 and (2) 3 or more units of
        service; 6

    •   coordinated with WPS and Highmark in determining the providers and line items
        associated with the Legacy J12 Workload;

    •   identified 424 line items totaling approximately $2.1 million that Medicare paid to 31
        providers;

    •   contacted the 31 providers that received Medicare payments associated with the selected
        line items to determine whether the information conveyed in the selected line items was
        correct and, if not, why the information was incorrect;

    •   reviewed documentation that the providers furnished to verify whether each selected line
        item was billed correctly;

    •   coordinated the calculation of overpayments with Highmark; and

    •   discussed the results of our review with Highmark officials on October 24, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

Of the 424 selected line items for which WPS made Medicare payments to providers for
outpatient services during our audit period, 201 were correct. Providers refunded overpayments
on 18 line items totaling $32,031 prior to our fieldwork. The remaining 205 line items were
incorrect and included overpayments totaling $1,508,155, which the providers had not refunded
by the beginning of our audit.



6
 For this audit, we reviewed those line items that met the stated parameters. We applied those parameters to
unadjusted line items. In some cases, subsequent payment adjustments reduced the difference between payment and
charges to less than $1,000.

                                                       3
Of the 205 incorrect line items:

    •   Providers reported incorrect units of service on 102 line items, resulting in overpayments
        totaling $1,274,331.

    •   Providers used HCPCS codes that did not reflect the procedures performed on 60 line
        items, resulting in overpayments totaling $131,953.

    •   Providers billed for unallowable services on 25 line items, resulting in overpayments
        totaling $68,227.

    •   Providers did not provide the supporting documentation for 13 line items, resulting in
        overpayments totaling $25,780.

    •   Providers reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes on five line items, resulting in overpayments totaling $7,864.

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
WPS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place during our audit period to prevent or detect the
overpayments.

FEDERAL REQUIREMENTS

Section 1833(e) of the Social Security Act states: “No payment shall be made to any provider of
services … unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider … for the period with respect to which the amounts are
being paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “providers must use HCPCS codes … for most outpatient services.”
Chapter 25, section 75.5, of the Manual states: “… when HCPCS codes are required for
services, the units are equal to the number of times the procedure/service being reported was
performed.” 7 If the provider is billing for a drug, according to chapter 17, section 70, of the
Manual, “[w]here HCPCS is required, units are entered in multiples of the units shown in the
HCPCS narrative description. For example, if the description for the code is 50 mg, and 200 mg
are provided, units are shown as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”



7
 Before CMS Transmittal 1254, Change Request 5593, dated May 25, 2007, and effective June 11, 2007, this
provision was located at chapter 25, section 60.5, of the Manual.


                                                      4
OVERPAYMENTS FOR SELECTED LINE ITEMS

Incorrect Number of Units of Service

Providers reported an incorrect number of units of service on 102 line items, resulting in
overpayments totaling $1,274,331. The following examples illustrate the incorrect units of
service:

       •   One provider billed Medicare for 59 line items with an incorrect number of service units.
           Rather than billing between 25 and 87 service units (the correct range for the HCPCS
           codes associated with these line items), the provider billed 160 service units. These
           errors occurred because of an error in the provider’s pharmacy billing system. As a result
           of these errors, WPS paid the provider $496,020 when it should have paid $96,188, an
           overpayment of $399,832.

       •   Another provider billed Medicare for an incorrect number of service units on one line
           item. Rather than billing 12 service units, the provider billed 692 service units. This
           error occurred because of an error in the provider’s billing system. As a result of this
           miscalculation, WPS paid the provider $217,980 when it should have paid $3,038, an
           overpayment of $214,942.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used HCPCS codes that did not reflect the procedures performed on 60 line items,
resulting in overpayments totaling $131,953. The following examples illustrate the incorrect
HCPCS codes:

       •   Because of an error in the chargemaster, 8 1 provider billed Medicare for 49 line items
           with an incorrect HCPCS code. The provider billed for a procedure to separate blood
           into its components rather than a procedure to transfuse blood. As a result of these errors,
           WPS paid the provider $80,061. The provider refunded the entire payment of $80,061.

       •   Another provider billed Medicare for one line item with a HCPCS code (J9216) for the
           injection of protein, rather than using the correct HCPCS code (J2916) for the injection of
           sodium ferric gluconate complex that was actually administered. As a result of this error,
           WPS paid the provider $2,453 when it should have paid $204, an overpayment of $2,249.

Services Not Allowable for Medicare Reimbursement

Providers incorrectly billed Medicare for 25 line items for which the services rendered were not
allowable for Medicare reimbursement, resulting in overpayments totaling $68,227. For
example, 1 provider billed Medicare for 13 line items that were unrelated to outpatient services.
Specifically, the provider incorrectly billed Medicare outpatient services for dental procedures
that are not covered by Medicare. For one such procedure, the provider billed for the surgical
8
    A provider’s chargemaster contains data on every chargeable item or procedure that the provider offers.


                                                           5
removal of an erupted tooth, which is not a covered procedure according to the Medicare Benefit
Policy Manual (Pub. No. 100-02, chapter 15, section 150). As a result of these errors, WPS paid
the provider $34,044 when it should have paid $0, an overpayment of $34,044.

Unsupported Services

Two providers billed Medicare for 13 line items for which they did not provide supporting
documentation. Both providers agreed to cancel the claims associated with these line items and
refund the combined $25,780 of overpayments received.

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect number of units of service claimed and incorrect
HCPCS codes on five line items. These errors resulted in overpayments totaling $7,864.

For example, one provider billed Medicare for both an incorrect number of units of service and
incorrect HCPCS codes on two line items. Rather than billing for one service unit of a
laparoscopy procedure, the provider billed between three and four service units of an osteoplasty
procedure. As a result of these errors, WPS paid the provider $5,832 when it should have paid
$2,951, an overpayment of $2,881.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
WPS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place to prevent or detect the overpayments. In effect, CMS
relied on providers to notify the Medicare contractors of incorrect payments and on beneficiaries
to review their Medicare Summary Notice and disclose any overpayments. 9

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially incorrect Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires Medicare contractors to determine the legitimacy of the claims. However, this edit did
not detect the errors that we found because the edit considers only the amount of the payment,
suspends only those payments that exceed the threshold, and does not flag payments that exceed
charges.




9
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.

                                                         6
RECOMMENDATIONS

We recommend that Highmark:

    •   recover the $1,508,155 in identified overpayments,

    •   work with CMS to implement system edits that identify line item payments that exceed
        billed charges by a prescribed amount, and

    •   use the results of this audit in its provider education activities.

HIGHMARK MEDICARE SERVICES COMMENTS

In written comments on our draft report, Highmark stated that it was unable to verify the
overpayment amounts because access to the WPS workload was no longer available. Highmark
added that it would consult with CMS to determine whether any of the overpayments were
collected to date and to pursue the possibility of recovery of any outstanding overpayments.

Our draft report included a recommendation related to the recovery of two incorrect line item
payments whose line payment amounts had not been determined. In comments on this
recommendation, Highmark stated that the two claims could not be adjusted based on the current
coding. Highmark stated it would consult with CMS to determine how to address the
overpayment amount related to the two claims and recover the funds.

In comments on the last two recommendations, Highmark described corrective actions that it had
taken or planned to take.

Highmark’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

With respect to Highmark’s comments related to the identified overpayments, we reviewed the
remittance advices or the information contained in the Medicare claims processing system for
each adjusted line item. In this manner, we were able to confirm not only that the providers had
refunded the overpayments, but also the amounts of the overpayments. To verify that the
overpayments have been collected, we encourage Highmark to consult with CMS.

When we issued our draft report, 2 of the 205 incorrect line items had not been reprocessed and
the correct line payment amounts for those 2 line items had not been determined. Providers have
since adjusted the two line items that were outstanding and have subsequently refunded an
additional $1,451 to Highmark. After the issuance of our draft report, we identified one line item
for which our draft report had understated the questioned cost by $3,028. For this final report,
we revised the findings and first recommendation to reflect the additional claim lines adjusted
and amounts recovered. We also removed the recommendation involving the two incorrect line
items that had been in our draft report.


                                                   7
APPENDIX
                                                                                                    Page 10f2


  APPENDIX: HIGHMARK MEDICARE SERVICES COMMENTS




January 6, 2012

 RE: Report Nwnber A-07-11-04184

Patrick J. Cogley
Regional Inspector General for Audit Services
Office of Audit Services. Region VII
601 East 12 ili Street
Room 0429
Kansas City, Missouri 64106


Dear Mr. Cogley,

This letter is in response to your letter dated December 9, 201 I, regarding the draft report for
audit number A-07-1 ] -04184. Review ofMedicare Payments Exceeding Charges for Outpatient
Services Processed by Highmark Medicare Services in Jurisdiction 12 for the Period January 1,
2006 Through June 30, 2009.

Recommendation that Highmark recover tlte $1,503,677 in identified overpayments:

Response: HMS conducted preliminary analysis of the report provided by the OIG for the exit
conference. We researched 25 line items of the report in order to detennine the overpayment
amounts. In 16 cas.es, we were not able. to locate the AR',s on the Jl2 WPS workload on
HIGLAS because our access to the WPS HIGLAS historical workload is no longer available. In
other cases, situations such as the adjusted claim paying the same amount or more than original
claim, or providers sending in voluntary refunds to reconcile the balance exist resuJting in no
overpayment to pursue.

We will consult with eMS to attempt to determine whether any of the overpayments have been
collected to date and to pursue possible recovery of any outstanding overpayments, as
appropriate.


Recommendation that Highmark determine the amount ofoverpayments/or the two
incorrect line item payments and recover that amount:

Response: The two claims noted in the report cannot be adjusted based on the current coding in
the shared system. A valid Hepe code must be present to enable us to adjust these claims and
recover any overpayments. We will consult with eMS to determine how to address the amount
of overpayme!lt and recover the funds.




Enclosure (2)
                                                                                                    Page 2 of2




Recommendation that Highrnark implement system edits that if/enlify line item payments that
exceed billed charges by a prescribed amount:

Response: HMS conducted analysis of thi s issue related to an DIG audit of claims within the 

112 area of responsibility. The issue has been added to Medical Review's annual proactive 

analytic schedule. 


I-IMS' Infonnatics area reviews many sources of data for potential issues, including DIG reports.
Additionally. eMS has implemented a new quarterly reporting process which identifies specific
vulnerabilities for the Contractor to address. The issues on this 010 report and recent RAe
findings can be included on in the quarterly process.


Recommendation that Highmark use the results ojlitis audit in its provider education
activities:

Response: HMS will use the findings l.isted to develop targeted provider education
opportunities. As appropriate, HMS will send CBRs (Comparative Billing Reports) to
providers. The CBRs will instruct the providers on proper billing and allow them to review their
claims and repay monies in the case of errors.


If there are any other questions or concerns, please do not hesitate to contact me at (717) 302­
4410 or Michele Daley-Ryan at (717) 302-7516. 


Sincerely,




rt:::::l t!S
Director, Qua1ity and Perfonnance Management 

Highmark Medicare Services 

